Report of Review: Major EPA Information Systems
are Vulnerable to Failure Due to the Upcoming
Century Change
                                                  #6400036
System managers within EPA are not fully prepared to address the problems associated with the year 2000.
Although the scope of this review was limited to 22 major application systems and seven major hardware
platforms, the potential effect of the problem within EPA is tremendous. EPA's Information Systems Inventory
(ISI) describes approximately 300 systems, databases, models, modules, and other computer applications. EPA's
Office of Information Resources Management (OIRM) must accelerate its Year 2000 campaign in order to
ensure Agency preparedness for the century change. In order to reduce EPA's exposure to major system failure,
a determination of the risks associated with each system in the year 2000 must be made. Once the risks have
been evaluated, careful planning and budgeting must be conducted to ensure that all necessary changes are
identified, performed, and tested in time to prevent system failure.

Purpose

The objectives of this survey were to: (1) determine how major EPA application systems currently store date
information; (2) determine which application systems will require modification; (3) determine if planning for
upgrade of these systems is adequate; and (4) determine how vendors of major EPA platforms are addressing
the century change in their operating systems.

Background

The upcoming century change is considered to be one of the most critical problems facing data processing
today. Because most computer systems were developed to maximize storage capacity, dates were often stored
as 6-digit numeric fields, omitting the century identifier. This was an effective cost saving technique in the early
days of computers. However, as the century change approaches, information resources management (IRM) is
beginning to realize the potential impact of this methodology on major information systems. Because almost
every system performs date calculations, almost every system is vulnerable to failure or production of unreliable
information.

There are two basic problems associated with the year 2000: inverse dates and incorrect leap year assumptions.
The first problem, inverse dates, primarily effects application systems and is caused by application logic
interpreting "00" as occurring prior to "99". When this occurs, dates associated with "2000" will be interpreted
as "1900", causing the system to either fail or return nonsensical dates. Either result would have extremely
negative impacts on mission-critical Agency systems.

Example:

A human resources system determines length of service by subtracting an employee's service computation date
(SCD) from the current date.
Current Date: 11/15/05 - SCD: 11/15/70 = Length of Service: -65 Years

The second problem, incorrect leap year assumptions, primarily effects the hardware platform's system software
and occurs as a result of the inverse date problem. There are three leap year rules:
   •   If the year is divisible by four, it is a leap year unless -
   •   It is divisible by 100, in which case it is not a leap year.
   •   However, if it is divisible by 400, it is a leap year.

Because 2000 is divisible by 4 and 400, it is a leap year. The incorrect leap year assumption occurs when the
system interprets "00" as "1900" and assumes it is not a leap year. This result could also have negative impacts
on individual hardware platforms, as well as the processing of mission-critical systems.

Although the problems themselves are relatively simple, the solutions can be complex. In order to fully assess
the magnitude of the problem in a system, several issues need to be addressed:

   •   Sources of Data - If an organization has complete control over the data entry process, this issue is less
       complicated. However, if data is imported in from other systems or organizations, the date format of
       those systems becomes critical.
   •   Embedded Date Codes - If a date, or part of a date, is used as part of another field, logic and sorting
       problems can occur. Two digit year codes are often used in numbering invoices, cases, permits, and
       other documents. In the year 2000, a tracking number of '001234' will incorrectly sort before '991234.'
   •   Interfaces with Other Systems - When systems interface, date codes are often exchanged. The number,
       location, and formatting of date fields exchanged with other systems should be known and coordinated
       in advance.
   •   Operating System Dependencies - The year 2000 compliance status of the operating system and
       associated tools and utilities can have tremendous impact on the proper functioning of applications.
       Application logic would be adversely affected if the operating system provides an invalid date, incorrect
       day of year, or incorrect day of week.
   •   Historical Data Requirements - If all data is considered current, all data must be reformatted into the
       new date format. However, if some data is archived and seldom used, it may not need to be reformatted.
   •   Effects on User Community - Changes in field formats could have a profound effect on self-developed
       user programs, data retrievals, and reports. All changes should be communicated to users so they can
       modify their programs accordingly.
   •   Changes in Output/Reports - When field formats are changed, output record layouts and report layouts
       must also be modified to accept the expanded data. Additionally, lines associated with display screens
       and reports might exceed normal limits, causing data to unexpectedly move to a new line.

EPA's OIRM has begun an information campaign to make the IRM community aware of the problems and
solutions associated with the year 2000. The Director of OIRM sent a memorandum to all Senior Information
Resources Management Officials (SIRMOs), System Managers, and Regional IRM Chiefs informing them of
the problem and advising them to expand all necessary date fields to prepare for the century rollover. As part of
a monthly project status briefing, the Systems Development Center (SDC) evaluated the year 2000 status of 36
EPA systems being developed or modified at the center. Additionally, Enterprise Technology Services Division
(ETSD) personnel developed several queries which will help managers of systems within the central database
identify potential date codes that need to be modified. Finally, EPA will be participating as a member of the
Federal IRM Policy Council (FIRMPOC) government-wide taskforce on the year 2000.

Scope and Methodology

The primary focus of this audit was to evaluate EPA's vulnerability to major system failure due to the upcoming
century change. Fieldwork was conducted from June through October 1995, at EPA Headquarters, Washington,
D.C., and the ETSD, Research Triangle Park, NC. We selected 22 major application systems in 6 program
offices for review to evaluate their planning for year 2000(1). We requested data dictionaries and other forms of
year 2000 documentation from system managers. We also discussed operating system preparedness and testing
for seven major Agency platforms with ETSD representatives. This work was not conducted as part of an audit,
and accordingly was not done in accordance with governmental auditing standards. Instead, the work
represented a special review which was conducted in accordance with provisions of OIG Manual Chapter 150.

Year 2000 Requirements and Guidance

Office of Management and Budget (OMB) Circulars A-130, A-123, and A-127 respectively provide
Government-wide policy and guidance for: (1) the management of Federal information resources; (2) the
improvement of accountability and effectiveness in Federal programs and operations via management controls;
and (3) the development, operation, evaluation, and reporting requirements of financial management systems.
OMB Circulars A-130 and A-123 outline policy and guidance that define the basic responsibilities of Federal
managers. They impact directly or indirectly on all managerial decisions and activities, including those that
affect the threats associated with the year 2000. OMB Circular A-127 addresses the issue of IRM standards and
has more direct influence on year 2000 solutions. Date standards are critical to the development of a successful
strategy to combat the threats associated with the year 2000.

OMB Circular A-127 states "Standard data classifications (definitions and formats) shall be established and
used for recording financial events. Common data elements shall be used to meet reporting requirements and, to
the extent possible, used throughout the agency for collection, storage and retrieval of financial information."
This circular also states "Common processes shall be used for processing similar kinds of transactions
throughout the system to enable these transactions to be reported in a consistent manner."

EPA developed policies and guidance which augment these Federal directives. For example, the Information
Resources Management Policy Manual contains policy statements that assign the primary functional
responsibility for IRM policy development and overall management of the Agency's IRM program to the
Director of the OIRM. Furthermore, the Agency Catalog of Data Policies and Standards states that it is EPA
policy to create and maintain consistency in the form of data elements that have more than one application
within the Agency. This consistency will permit the cross media approach necessary to achieve environmental
results. This catalog also acknowledges EPA's adherence to Federal Information Processing Standard (FIPS) 4-
1, entitled "Representation for Calendar Date and Ordinal Date for Information Interchange," which states that
the standard format for the year contains four digits.

EPA's Office of Administration and Resources Management (OARM) fiscal 1995 IRM Strategic Plan discussed
"...a bold new course for information management at EPA." The plan states that "EPA will ensure its data can
be integrated to support comprehensive environmental protection and public access to environmental
information." The plan further states that "EPA commits to standardize its data, thereby increasing the value and
usefulness of its information resources." This plan was developed by a team with broad representation including
the Agency's Senior Management, program and IRM staff, external stakeholders, and partners.

Finally, in May, 1995, the Director of OIRM issued a memo regarding the year 2000 date change. In this memo,
he reminded Agency management of the need for providing four digits for the year instead of two. To reiterate
the point he stated again that,"in most circumstances, it would be better to change the year to four digits rather
than try to formulate (and then maintain) logic work-arounds."

Major EPA Systems Are Not Fully Prepared for the Century Change

OIRM's awareness campaign has been successful in that nearly all system managers interviewed were aware of
the year 2000 problem and understood the importance of addressing it. However, during the interview process,
several system managers stated that they were unaware of some of the issues brought out by the questions asked
(e.g., sources of data, embedded date codes, etc.). Additionally, several system managers expressed concern
over the lack of detailed information from OIRM, stating that an electronic forum for posting information,
questions, and answers would be helpful to them.
Despite the general awareness of the problems
associated with the century change, only three system
managers (CLP, CERCLIS and SCRIPS) stated that
their systems are currently year 2000 compliant(2). As
Table 1 indicates, the remaining systems are in
varying states of readiness. The majority of these
remaining systems are in the early stages of planning
complete modernizations of their systems or
expansion of date fields. It is generally believed that
one of the more difficult tasks associated with this
planning process is locating all date fields within
complex systems. However, the queries developed by
ETSD may help those systems within the central
database environment locate potential date codes in
need of modification. This should ease the burden on
system managers just starting the process.

There is great variety in the way system managers
have responded to the OIRM memorandum
encouraging system managers to upgrade their
information systems to handle dates beyond 2000.
For example, 9% of the system managers interviewed
felt that there was no need to make changes to their
system. Additionally, while industry recommendations and the OIRM memorandum state that it is preferable to
expand year fields to four digits rather than try to formulate and maintain logic work-arounds, 23% of the
system managers interviewed are planning to implement some form of logic work-around in their system. The
remaining 68% of system managers intend to expand all date fields to four digit years as recommended or are
unsure of how they will address the problem.

Every system surveyed exchanges data with at least one other Agency system. Additionally, 54% of the systems
exchange data with systems outside EPA (e.g., Federal, State, and Industry systems). However, only 15% of the
system managers surveyed have addressed their systems' interfaces.

Table 2 provides a summary of how system
managers planning to address the year 2000 problem
intend to address their system interfaces. While 25%
of system managers indicated that their interfaces
would not be effected by year 2000 compliance, the
remaining 60% of systems rely on date-sensitive
interfaces and have few plans to ensure that these
interfaces will continue to function at the century
change.

Finally, the system software associated with EPA's
hardware platforms (e.g. IBM Mainframe, UNIX
workstations, Supercomputer, etc.) supporting most
of these major information systems may not be
completely year 2000 compliant. When we
interviewed ETSD staff regarding the ability of
EPA's major platforms to correctly process dates
beyond 1999, the response was initially positive.
Many of the Agency points of contact for these
platforms indicated that they had performed, or were willing to perform, some level of testing to ensure that
dates beyond 2000 were considered valid. However, there was no consistent test plan used to ensure that all
idiosyncrasies of the operating systems were tested and some points of contact stated that they had not tested the
validity of leap year processing in 2000.

EPA Systems are Vulnerable to Year 2000 Problems

The effects of year 2000 related problems are generally described in terms of 'event horizons.'(3) In 1995, four
major Agency systems experienced problems when processing permits and contracts with a five year event
horizon. Because these systems would not accept dates beyond 1999 as valid, it was necessary for date
information to be stored manually. This information will be re-entered into the systems as they are upgraded to
accept future dates. In the mean time, these systems still contain improper dates that compromise the integrity
of Agency data.

As time goes by, more systems will reach the point where their event cycle crosses the year 2000 boundary.
This will cause increasing problems with the integrity and usability of Agency data. Although many systems are
beginning to plan for modernization or upgrade of their systems, time is running short. A common industry
recommendation is for year 2000 compliant systems to be fully implemented by the end of 1998, in order to
allow for one full year of normal, year-end, and quarter-end processing. However, systems should be
completely modified by the end of 1997 in order to accommodate the lengthy testing, training, and
implementation processes. Based on the lack of detailed plans, current budget uncertainties, and time delays
associated with contracting, it is questionable whether or not these systems will be fully compliant before their
event horizon reaches 2000.

Additionally, the use of logic work arounds by several systems only postpones the general problem. Currently,
all date dependent systems must deal with a failure date of 2000. However, as system managers decide to
implement the logic work-around approach, they will choose the most appropriate cut-off date for their system.
This will effectively hide the problem within the code of each application and scatter failure dates randomly
across the Agency.

The large quantity of date-dependent interfaces within major Agency information systems further complicates
EPA's vulnerability. Because system managers are using inconsistent methods of dealing with the year 2000,
there is uncertainty regarding how well these systems will interact. One of the biggest interface concerns is the
network of financial systems within EPA. IFMS, the main financial information system, is planning to
implement a logic work-around approach to the year 2000. This approach will require systems supplying data to
IFMS to strip off the first two digits of the year prior to sending the data to IFMS. IFMS will then use an
algorithm to determine if the 2-digit year should be preceded by a '19' or a '20' and add the appropriate number.
This same process will be reversed for systems pulling data from IFMS. This process is inefficient, contrary to
the requirements of A-127, and could lead to incorrect century assumptions. Finally, while IFMS system
management believes that the algorithm to determine the appropriate century will not fail, this belief is offset by
the criticality of IFMS's and other financial system data.

As paper-based processes are replaced with system interfaces, the stability and integrity of those interfaces
becomes critical. However, the majority of system managers have not yet begun to address the question of how
their system will exchange data with other systems. Because of this, there is no guarantee that data will flow
correctly from system to system. This situation reduces the integrity of shared data and jeopardizes the current
Agency initiatives regarding electronic data interchange, data sharing, and public access. These initiatives are
totally dependent on exchanging correct data among EPA systems, as well as with other Federal Agencies and
industry.

Regardless of the level of planning and upgrading done by system managers, each major application is
ultimately vulnerable to the faults of the hardware platform on which it resides. Almost all system managers
reported being dependent on the operating system to provide the correct date. Additionally, system managers
listed several operating system tools and utilities which are necessary for their programs to function. There is no
consistent approach to ensuring that the operating system will return the correct date in the years beyond 2000,
and no methodology for evaluating software tools and utilities for year 2000 compliance. Because of this,
system managers have no guarantee that their programs will continue to function as intended in the year 2000.

OIRM Needs to Accelerate Their Year 2000 Campaign

According to the IRM Policy Manual, OIRM is responsible for the development of IRM policy and overall
management of the Agency IRM program, including development of data policies and standards. The
framework provided by this policy invests OIRM with the right and responsibility to lead the Agency's effort to
respond to the year 2000 threat. Although OIRM has launched an effective year 2000 awareness campaign, they
have not stepped forward with specific policies, procedures, and methodologies. This has left system managers
on their own to bring their systems into year 2000 compliance.

During audit interviews, several system managers stated that they were unaware of some of the anticipated
problems. Unfortunately, date logic is pervasive, and some of the more serious problems will result because
important aspects are overlooked during upgrades. Identification of these more obscure concerns need to be
addressed during the planning stages of modifications so that solutions can be formulated. Retrofitting a
solution can be both time-consuming and costly. Identification of these issues can be addressed through the
dissemination of guidance, as well as interactive discussion with responsible management.

Contrary to OIRM's earlier memorandum, they have since determined that the existing Agency data standard,
requiring a four-digit year date, is too restrictive. However, they have not introduced supplemental guidance to
identify acceptable alternative solutions. At a time when so many systems are undergoing change, standards are
necessary to ensure consistency for data integration and data sharing across the Agency. The use of standards
can also cut costs. A reliable, comprehensible and portable date routine is an integral part of the overall 2000
solution, and would help lessen testing costs and save project dollars. As the Agency's manager for establishing
IRM policy, OIRM has a responsibility to promulgate and enforce the use of data standards across the Agency.

We recognize that year 2000 testing should be relative to the complexity of the individual application, the
criticality of its data, as well as the particular system'senvironment. However, we discovered that certain
common aspects of testing had not been adequately addressed within the Agency. For example, little emphasis
had been placed on developing tests to: (1) ensure the accurate operation of date-sensitive interfaces; (2) detect
operating system idiosyncrasies; or (3) validate leap year processing. In order to effectively address these
common problems, OIRM needs to devise and disseminate a testing strategy which adequately addresses these
and other concerns, and yet is flexible enough to permit creativity and customization, depending on each
system's particular needs. This strategy should provide guidance and set milestones for system managers.
Because the modification process is lengthy and deadlines are critical, strategic progress should be measurable
and problems must surface as early as possible.

OIRM has acknowledged the need to assume a broader role. To successfully address the many challenges
associated with year 2000 exposures, it is imperative that this effort is managed through a central focal point.
This focal point should be responsible for critical project aspects, such as setting general milestone dates,
coordinating commercial vendor actions, and establishing a consistent methodology through all project phases.
During a recent discussion, OIRM representatives described their plan to embark upon a comprehensive year
2000 campaign which encompasses all of the aforementioned areas. Unfortunately, OIRM's plant is not
scheduled to begin until fiscal 1997. Meanwhile, some Agency systems have already experienced year 2000
problems and system managers are actively seeking solutions. OIRM must begin immediately to analyze the
extent of the Agency's problem and accelerate it's year 2000 campaign, accordingly. There is a problem now
and there will undoubtedly be additional future repercussions, unless the time to act is moved forward rather
than backward.
Recommendations

1. OIRM endorse the use of its existing four-digit year standard, and require the system managers to obtain a
waiver if they choose a solution other than the standard.

2. OIRM expedite the development of guidance documents to direct ongoing and future efforts to overcome the
year 2000 dilemma. At a minimum, guidance documents should: (1) identify common problematic concerns; (2)
identify reliable methods for testing date fields for year 2000 compliance; and (3) identify tests designed to
ensure compatibility between Agency applications systems.

3. OIRM employ one of its existing communications mechanisms to: (1) disseminate guidance to system
managers; (2) serve as a central repository devoted to year 2000 issues; and (3) provide an avenue for the
exchange of ideas and experiences among system managers.

Agency Comments and OIG Evaluation

In a memorandum dated December 12, 1995, the Acting Director for Information Resources Management
responded to our draft report (see Appendix 1). In summary, the Agency partially agreed with all three of our
recommendations. Discussions with OIRM representatives resulted in a revised set of recommendations which
should alleviate some of OIRM's concerns and yet adequately address the conditions noted in our draft report.
To provide a balanced understanding of the issues, we have summarized and commented on the Agency's
general concerns regarding the draft report.

   •   OIRM officials believe that the Agency should be evaluated on the current status of its planning efforts
       to achieve year 2000 readiness, rather than on a 1995 snapshot of major systems' status.

       The year 2000 date change is a time sensitive crisis and the status of OIRM's planning efforts do not
       reflect the urgency of the situation. We found little in the way of current plans or guidance to assist
       system managers who are actively pursuing year 2000 solutions. OIRM's May 22, 1995 memorandum
       regarding the Year 2000 Date Change stated that they will ensure proper attention to the year 2000 issue
       beginning with the fiscal 1997 IRM planning process. In our opinion, plans formulated or presented in
       fiscal 1997 will be of little benefit to those system managers who are currently addressing year 2000
       issues. Furthermore, four EPA systems have already experienced year 2000 problems because they
       could not accept dates beyond 1999. By fiscal 1997, the number of systems experiencing similar
       problems is certain to increase.

   •   OIRM management maintains that they demonstrated appropriate leadership in concert with current,
       year 2000 policy in the Federal Government, as well as with trends in the private sector.

       We acknowledge that OIRM demonstrated management leadership with its awareness campaign, and
       through ETSD efforts to identify date codes in various systems. However, our review reveals that
       continued and added support is necessary. EPA system managers expressed a desire for more direction
       from OIRM. In addition, we found that system managers were inconsistent in their methods to resolve
       year 2000 problems, and were not fully aware of concerns commonly associated with the century
       change. This type of Agency-wide effort requires central management. Central management should
       assume responsibility for overall scheduling by implementing and coordinating a consistent
       methodology throughout the entire process. In addition, central management is necessary to respond to
       problems which fall outside the authority of individual systems managers. It is central management's
       responsibility to set the overall objectives, identify acceptable solutions, direct their implementation, and
       determine when the objectives have been satisfied. In our opinion, OIRM has not exhibited this type of
       active involvement. OIRM needs a strategy that will allow them to become the focal point for directing
       this Agency-wide challenge. OIG recommendations were conceived to promote that objective.
The Agency's response noted inaccuracies and/or omissions in our draft report. We have addressed these
concerns below:

   •   OIRM noted that the draft report did not mention that FIPS Publications 4-1 allows for a two-character
       date field as an alternative to a four-character date field.

       The FIPS Publication 4-1 option, permitting use of a two-digit date field, is the primary reason that we
       face a crisis with the upcoming century change. Continued use of this option is considered a temporary
       fix which will ultimately need to be replaced. Furthermore, when this option is exercised, it becomes
       necessary to develop logic and write additional code to sustain its use. OIRM is allowing individual
       system managers to develop this logic and generate additional code as they deem appropriate. However,
       OIRM has not provided formal guidance to advise managers of the consequences such a decision could
       have on data integrity or Agency data integration initiatives.


   •   OIRM stated that the draft report did not mention resources as a valid concern involved in selecting a
       year 2000 solution. The Agency's response states that the year 2000 solution must, to some extent, be
       driven by a cost benefit analysis of alternatives.

       Very few of the system managers interviewed cited a lack of resources as a major problem. Most
       systems were well beyond cost benefit analyses and management was actively engaged in implementing
       their solutions. The few system managers who voiced resource concerns had not developed any formal
       plans. Their resource concerns were more speculation about the possibility of resource problems, rather
       than hard facts based on analysis. Moreover, while the lack of resources is a genuine concern, it is not an
       acceptable excuse for declining to address the problem.

   •   The Agency disputed the number of EPA systems, databases, etc. stated in the draft report, and quoted
       "300" as the correct number.

       We obtained our number from the IG's Special Review, which relied on information from a previous
       version of the EPA's ISI. During the audit entrance conference, the Director for Information Resources
       Management expressed concern that because the ISI is self-reported, it might not effectively represent
       the most critical Agency systems. Therefore, he suggested that we rely of the IG's Special Review which
       ranked systems according to risk. The final report was changed to reflect 300 systems.

The following Agency comments relate to specific recommendations cited in the draft report. However, this
final report contains a revised set of recommendations.

Recommendation 1. While OIRM officials agree that they should establish a standard for the date field, they
maintain that the four digit approach is too restrictive. They stated that FIPS Publication 4-1 allows for the use
of a four or a two digit date field. OIRM insists that system managers have the flexibility to build year 2000
compliance within their unique technology framework and in the most cost effective way. The Agency
responded that, whatever standard is established, there "should be a requirement built into the IRM procurement
process through the EPA Acquisition Regulations. This would require that all commercial software developers
and providers assure year 2000 compliance in all future software development or enhancement products they
provide to the Agency."

According to FIPS Publication 4-1 and EPA's Data Standards Catalog, the four-digit year is the existing Agency
standard for the date field. As an existing Agency standard, it is already required by EPA Acquisition
Regulations. However, we realize that to rigidly impose this standard on all existing systems would be
impractical. There are a number of reasons why existing systems might be exempt from the standard. For
example, expanding the date field is too costly a solution for systems nearing replacement or retirement. Our
concerns are based on the fact that there are a number of alternative approaches being used throughout the
Agency, but few of the system managers interviewed had plans to ensure that their system interfaces would
operate properly.

We recommend the use of waivers to accommodate situations where systems are justifiably exempted from the
standard. We contend that the use of waivers allows system managers ample flexibility in justified situations. In
addition, the use of waivers would provide OIRM with a much needed mechanism for controlling, coordinating
and acknowledging decisions to deviate from the Agency standard. Despite OIRM's objections to the use of
waivers, we found that Agency Directive 2100 clearly advocates their use.

Recommendation 2. OIRM agreed that reliable methods for testing date fields for year 2000 compliance were
necessary. However, the Agency suggested that the recommendation be reworded to use the phrase "test
methods guidance document." In their opinion, this terminology would allow system managers more flexibility
to choose a methodology appropriate and cost effective for their environments. In addition, OIRM anticipates
that commercial vendors will modernize their operating system utilities and software tools to accommodate the
century date change within the next one to two years.

We have no objection to modifying the wording of this recommendation. We agree with the need to have
reliable methods for testing date fields for year 2000 compliance. In our opinion, these guidance documents will
provide (1) consistency to the issues being contemplated when planning a solution and (2) uniformity in the
approaches being taken to carry out those plans. We reiterate that these guidance documents should be
completed in a timely manner, to allow adequate time for the implementation of suggested methodologies.

Recommendation 3. OIRM agreed that managers needed to be kept informed of relevant year 2000 policies,
procedures and methodologies, but maintained that there are sufficient existing communication mechanisms to
facilitate this process.

We concur that there is no need to establish a new forum. Our intention is to influence the Agency to utilize an
existing forum to disseminate guidance or relevant information, as well as encourage an open exchange of ideas
and experiences among system managers.


Appendix 1

Electronic version of Appendix 1 not available.



Appendix 2
                                         REPORT DISTRIBUTION

Office of Inspector General

       Inspector General (2410)

       Deputy Inspector General (2410)

       Assistant Inspector General for Audit (2421)

       Principal Deputy Assistant Inspector General for Audit (2421)
       Associate Assistant Inspector General for Internal and Performance Audits (2421)

EPA Headquarters

       Acting Director, Office of Information Resources Management (3401)

       Associate Administrator for Congressional and Legislative Affairs (1301)

       Agency Followup Official (3101)

       Attn.: Assistant Administrator for Administration and Resources Management

       Agency Followup Coordinator (3304)

       Attn.: Director, Resources Management Division

       Audit Followup Coordinator (3102)

       Attn.: Program & Policy Coordination Office

       EPA Headquarters Library

       Audit Liaison, Office of Air and Radiation (6102)

       Audit Liaison, Office of Administration and Resources Management (3102)

       Audit Liaison, Office of Enforcement and Compliance Assurance (2221)

       Audit Liaison, Office of Policy, Planning, and Evaluation (7101)

       Audit Liaison, Office of Solid Waste and Emergency Response (5101)

       Audit Liaison, Office of Water (4102)

       Audit Liaison, Office of Information Resources Management (3401)

Research Triangle Park, North Carolina

       Director, Office of Administration and Resources Management (MD-20)

       Director, Enterprise Technology Services Division/OARM (MD-34)



Footnotes

1. The following systems were surveyed: AIRS, CFEIS, GMISS, CPS, EPAYS, FINDS, GICS, ICMS, IFMS,
MATS, SCRIPS, CRIMDOCK, DOCKET, PCS, TRIS, CERCLIS, CLP, RCRIS, FRDS/SDWIS, IDEA,
NEEDS, and STORET. The platforms reviewed included: PC Workstations, LAN servers, IBM Mainframe,
DEC/VAX Cluster, Cray Supercomputer, UNIX Workstations, and Macintosh Workstations.
2. The term "year 2000 compliant" is used to describe a system where all date fields have been expanded to use
4-digit years.

3. An application's event horizon is defined as the latest future date that will be processed in the application.
